    US. Departmentof                                               The lnspector General                Office of lnspector General
    Transportation                                                                                      Washington. D.C. 20590

    Office of the Secretary
    of Transportation



June 19,2007


The Honorable Thomas E. Petri
Ranking Member, Subcommittee on Aviation
Committee on Transportation and Infrastructure
House of Representatives
Washington, DC 205 15
Dear Representative Petri:
Thank you for your letter of April 7, 2006, regarding improvements in the quality of
the underlying data of the Motor Carrier Safety Status Measurement System
(SafeStat), and your concern that the data may continue to contain flaws. We
received your request shortly after the Federal Motor Carrier Safety Administration
(FMCSA) briefed your staff on the plans for returning to public access the overall
SafeStat scores and Accident Safety Evaluation ~ r e a assessments.
                                                       '
Based on your request, we reviewed FMCSA's efforts to improve the data relied upon
in SafeStat. We found that, although improvements have been made, problems still
exist with the reporting of crash data. Crash data is reported by the states to
FMCSA's central database and becomes part of the SafeStat scores, including a
ranking designed specifically to reflect a motor carrier's crash history. The
effectiveness of the SafeStat scoring and ranking calculations is highly dependent on
the quality of the crash data file, which in the past was missing a substantial number
of reportable crashes.
As stated in its briefing, FMCSA has claimed significant improvements in the crash
file, including stating that 2004 non-fatal crashes in its database represented
99 percent of the National Highway Traffic Safety Administration's estimated number
of non-fatal large truck crashes. We agree that states are reporting more crashes to the
SafeStat database, but we found anomalies that caused us to question the
completeness of non-fatal crash reporting.            During our review, FMCSA
acknowledged the need to develop a new, more reliable estimate and has begun work
to implement the estimate. In our view, this estimate should allow FMCSA to

'    SafeStat overall scores are based on four assessment areas for which percentile rankings are calculated using current on-
     road safety performance information and on-site compliance review and enforcement history information. The Accident
     Safety Evaluation Area uses crash data to rank a motor carrier's crash experience relative to its peers.


Control No. 2006-041
evaluate, both nationally and state-by-state, completeness of non-fatal crash reporting
before the Department makes all SafeStat scores available to the public. FMCSA
expects to have this estimate in place by October 2007.
A more accurate account of non-fatal crash reporting is needed because crash data are
a large component of the SafeStat calculation of a motor carrier's relative safety
ranking, and non-fatal crashes comprise over 96 percent of crashes reported to
FMCSA. Completeness of data is critical for SafeStat because scoring involves a
relative safety ranking of one carrier against other carriers competing for the same
business. Missing crash reports may place a lower risk carrier in a deficient category
because data for a higher risk carrier is not included in the calculation. Consequently,
FMCSA should continue to limit public use until it can assess whether significant
crash reporting problems remain.
Although we believe FMCSA should limit public use of SafeStat for now, we
recognize that crash data will never be perfect. But the decision to allow public use of
SafeStat rankings should include consideration of the potential benefit to public
safety. In a March 22, 2004, statement to the National Industrial Transportation
League, former FMCSA Administrator Annette Sandberg said, "SafeStat is a vitally
important tool that allows you [shippers] to examine the performance trends of your
[its] existing and prospective carriers." In this regard, public use of SafeStat
represents an opportunity to positively impact motor carrier safety.
On May 7, 2007, we briefed your staff on the results of our review (copy of briefing
enclosed). Our briefing focused on your specific concerns and the results are
summarized below.
Improvement in SafeStat Data Quality is Still Needed
Our review found that FMCSA has made improvements in the data relied upon in
SafeStat, but problems with the completeness of crash reporting still exist. In our
February 2004 audit report, we reported that an estimated one-third of crash reports,
including 37,000 crashes involving interstate carriers, were missing from FMCSA's
database. More recently, the University of Michigan Transportation Research
Institute (the Institute) completed 14 individual state data quality evaluations. These
evaluations found problems with the completeness of state crash reporting and
identified problems with crash forms and a need for additional training for crash
reporting officials. The Institute also identified problems with imprecise vehicle type
and crash severity categories on state crash forms. This inconsistency caused
conhsion in the determination of whether a crash is reportable.
FMCSA's long-term goal is to work with the Institute to obtain an accurate account of
reportable large truck crash events and document crash reporting problems for each of
the 50 states by reviewing state crash records. In an effort to accomplish this goal,
FMCSA plans to have the Institute complete 18 additional state evaluations in the
current fiscal year, and anticipates completing the remaining state evaluations by the


Control No. 2006-04 1
end of fiscal year 2008. FMCSA has already used the results of completed state
evaluations to prompt the correction of data entry forms, target training programs, and
correct information technology issues.
State Safety Data Quality Map Does Not Reflect An Important Component
FMCSA's State Safety Data Quality map is a usehl indicator of data quality, but the
map does not reflect non-fatal crash reporting in its state ratings. In spite of this, the
map is valuable because it publicly discloses which states have problems with
completeness of crash reporting; crash and inspection timeliness; and, on a limited
basis, crash and inspection accuracy. However, the rating used to determine how
completely a state reports crashes to FMCSA uses only fatal crash data. Using only
fatal crash data in the map is a substantial omission in the measurement of crash
reporting completeness because non-fatal crashes comprise over 96 percent of crash
reports in FMCSA's database. As evidenced in the Institute's evaluations of state
crash reporting, states were found to have the most trouble with non-fatal crash
reporting criteria. Consequently, FMCSA is working with the Institute to develop a
non-fatal crash estimate and to incorporate a non-fatal crash completeness measure
into the State Safety Data Quality map. FMCSA expects to fully implement the
improved map in October 2007. In our opinion, FMCSA should complete this step
before making SafeStat scores available to the public.
Quality Standards are Good, but Measuring Achievement of Standards is a
Problem
FMCSA assesses the reliability of data using four standards: (1) completeness of
non-fatal crash reporting, (2) lack of geographic variation in crash reporting,
(3) requirement for states to receive passing scores on the State Safety Data Quality
map, and (4) implementation of the DataQs system, an electronic means for filing
concerns about Federal and state data released to the public by FMCSA. FMCSA's
standards for assessing reliable data are good, but problems with measuring the
completeness of crash reporting make it hard to determine whether three of the four
standards have been met.
FMCSA previously determined that the first standard that had been met because the
2004 crash file was 99 percent of the National Highway Traffic Safety
Administration's estimate. We found this determination to be questionable because
nine states are reporting only 60 percent of crashes determined to be reportable by the
Institute. This difference is significant because those same states reported 38 percent
of state crashes to FMCSA in 2004. Further, because the total number of reportable
truck crashes is based on a National Highway Transportation Safety Administration
estimate that has a margin of error of plus and minus 15 percent, even the 99-percent
measure could fall below the 90-percent standard. Assessments made on the second
and third standards are also questionable until FMCSA can determine the
completeness of non-fatal crashes of individual states.



Control No. 2006-04 1
For the fourth standard, we verified that FMCSA successfblly implemented the
DataQs as an administrative mechanism to correct data provided by states. This
system is important to the integrity of the data because it allows motor carriers and the
states to challenge any data they deem questionable. DataQs facilitates the process by
providing access and visibility for more than 17,000 challenges to FMCSA field
offices and state enforcement agencies that maintain the original crash and inspection
reports. Our checks of the DataQs system included a review of records and
observation of the system in operation. Using a random sample of DataQs challenges,
we verified that the appropriate corrective actions were made to SafeStat data in cases
where FMCSA or state officials agree the challenge warranted corrective action.
Conclusion
Before FMCSA allows public access to SafeStat scores, it must improve its ability to
measure the completeness of non-fatal crash reporting. Presently, FMCSA is testing
and refining the first version of a new, more accurate national estimate for how many
non-fatal crash reports are missing from its database and how many are missing from
each state. This estimate should substantially improve the State Safety Data Quality
map as an indicator of crash completeness and make FMCSA's assessments against
data quality standards more credible in allowing public access to SafeStat scores.
FMCSA plans to have the measure in place by October 2007. Consequently, it should
complete this step before making SafeStat scores available to the public.
If you have any questions concerning our review, please contact me at (202) 366-1959
or my Deputy, Todd Zinser, at (202) 366-6767.
Sincerely,




Calvin L. Scovel I11
Inspector General
Enclosure




Control No. 2006-04 1
                                                   Enclosure
                                                 Page 1 of 12




           Office of Inspector General Briefing in
         Response to Representative Petri's Request         I
             Regarding SafeStat Data Quality
                        May 7,2007




Control No. 2006-041
                                                                                            Enclosure
                                                                                          Page 2 of 12


                            Yorresponder .cc History

        March 13, 2006 - American Trucking Associations (ATA) letter to the Secretary voiced
        strong opposition to reestablishing full public access to SafeStat crash related and
        overall scores because of their serious and continuing concerns about the SafeStat
        system. ATA is concerned that the public use of SafeStat information directly impacts
        a motor carrier's business environment and opportunities.

    a   April 7, 2006 - Representative Thomas Petri (R-WI), then Chairman, Subcommittee on
        Highways, Transit and Pipelines, House Committee on Transportation and
        Infrastructure sent a letter to the OIG requesting answers to questions in these areas.

        The Secretary responded to the ATA in a June 12, 2006 letter stating that FMCSA will
        delay the decision to re-post SafeStat results until ongoing reviews are completed. In
        addition to our work, other ongoing reviews, aside from FMCSA's work, include two
        GAO audits--(I) "Identifying High Risk Motor Carriers," started in May 2006 and
        (2) "Motor Carrier Safety Oversight" started in February 2006. The first is scheduled to
        be completed in June 2007, and the second is scheduled to be completed in
        September 2007.




Control No. 2006-041
                                                                                          Enclosure
                                                                                       Page 3 of 12


                       Objectives and Methodology
     Our objectives were to respond to several questions posed in Representative Petri's
     letter covering the following three issues:
       Data Quality Improvements - evaluate the Federal Motor Carrier Safety
       Administration's (FMCSA) efforts to improve the quality of data in the Motor Carrier

     . Safety Status Measurement System (Safestat)
       State Safety Data Quality (SSDQ) Map - is it an accurate indicator?
       Data Quality Standards - evaluate FMCSA's standards for reliable and complete data
     Our methodology for responding to questions involved the following actions:
       Reviewed documentation, reports, and data files provided by FMCSA, National
       Highway Traffic Safety Administration (NHTSA), and the University of Michigan
       Transportation Research Institute (UMTRI)
       Coordinated with General Accountability Office (GAO) officials conducting two related
I      ongoing reviews

1      Observed an FMCSA data quality workshop on measures development on June 13,
       2006
       Interviewed officials from FMCSA, NHTSA, and UMTRI
       Our limitations - Did not develop independent assessments of Motor Carrier
       Management Information System (MCMIS) crash completeness or reproduce
       evaluations of state crash reporting completed by UMTRI.
                                                                                           3




Control No. 2006-041
                                                                                                                                Enclosure
                                                                                                                              Page 4 of 12


                                                         Summary
       Data Quality Improvements. FMCSA has made improvements to the data SafeStat
       relies upon but should follow through on its plans to complete state data quality
       evaluations for all 50 states by the end of fiscal year 2008 and implement its program
       to identify and fine motor carriers that have violated the regulation for timely
       submission of census data updates.

1      SSDQ Map. Although FMCSA's SSDQ map does not measure non-fatal crash
       completeness, it is still a useful tool for surfacing data quality issues. FMCSA and
       UMTRl are implementing a non-fatal crash completeness measure and are presently
       working to incorporate it into the map.

       Data Quality Standards. FMCSA's four standards for reliable data are good, but
       problems with measuring the completeness of crash reporting make it hard to
       determine whether three of the four standards have been met. FMCSA has
       recognized this weakness and has initiated efforts to implement new data quality
       measures and re-evaluate the SafeStat related data quality standards. These efforts
       are scheduled for completion in October 2007. A fourth standard, implementation of
       the DataQs* system, passed our assessment.
I    * The DataQs system is an electronic means for filing concerns about Federal and state data released to the public by FMCSA.




Control No. 2006-041
                                                                                                                                    Enclosure
                                                                                                                                  Page 5 of 12


    FMCSA Efforts to Improve SafeStat Data Quality
       What efforts has FMCSA made and to what extent have these efforts resulted in
       improvements in data relied upon by SafeStat?
        Motor carriers submitted more required updates to the census file and included more
        driver and power unit (vehicle) data, as evidenced by the decrease in outdated data and
        the number of driver and power unit data fields populated with zeros.



                     "Zero" Power Units                              I          11%               I           8%              I


                ,
                                                                     I                            I


                     Source: MCMlS as of January 31,2003 and January 31,2005.
        Timeliness and accuracy of crash and inspection data have improved, and the quantity                                                  1
        of non-fatal crash reports included in MCMlS has increased, although crash data
        accuracy showed the least amount of improv(      lt.
                    --
  "imeliness (T) and ~ c c u r a c ~ ' MkAiri'c
       -   -- - -                        (~f
    rverage Time to Enter and uphad Crash a a
   ~ v e r a g eTime to Enter and Upload I n s p e c t s 37 days                                             18 days              51%
   Non-Match Crash Data (A                                15.6%                                               14.2%                9%
   Non-Match Ins ection Data (A                           5.8%                                                3.3%                43%
  &
  F
  rY                                  200;   as !April    2004 and FY 2004 as of March 2006.
   Note: The purpose of the table above is to show whether progress was made by using equivalent data snapshots 18 months after ,- , ,
   the end of the fiscal year for fiscal year (FY) 2002 and FY 2004. We allowed extra time after the end of the fiscal vear to take data -i
   snapshots to give usmore assurance that all reporting backlogs will be entered




Control No. 2006-041
                                                                                                      Enclosure
                                                                                                   Page 6 of 12


               FMCSA's State Safe ly Data Qualitv Map




                                                                  State Ratin-   ~
                                                                  Fai,


   The map ratings are the result of an evaluation of state-reported crash ;..J roadside inspection data to
   FMCSA. Roadside inspection data are evaluated for timeliness and accuracy. Crash data are evaluated
   for completeness, timeliness, accuracy and consistency. However, for crash completeness, the map
   excludes non-fatal crashes.




Control No. 2006-04 1
                                                                                          Enclosure
                                                                                        Page 7 of 12


                       Accuracy of FMCSA's SSDQ Map
       Is the agency's Safety Data Quality Map an accurate indicator of a state's data
       quality?
       NO,because:
        FMCSA's SSDQ map is useful as an indicator; however, a state could have a good
        rating on the map, but at the same time have problems with non-fatal crash
        completeness.
       r   The SSDQ map does not have a non-fatal crash completeness measure. Therefore,
           overall crash completeness, as a component of the map, does not reflect over 96
           percent of all reportable crashes.
           Michigan, Illinois, and Missouri received a good rating on the map, although UMTRl
           reports indicated problems with crash completeness. The SSDQ map results will not
           be comparable to UMTRl evaluations until FMCSA incorporates a measure for
           completeness of state non-fatal crash reporting into the map.
       FMCSA is working with UMTRl to develop a more accurate national estimate fa.
       non-fatal crash completeness with a statistically valid way to estimate each
       state's share. This will substantially improve the SSDQ map as an indicator of
       crash completeness. FMCSA expects the measure to be ready for view by state
       officials in July 2007 and the new map made available to the public by October
       2007.




Control No. 2006-041
                                                                                                  Enclosure
                                                                                                Page 8 of 12




                        Reliable and Complete Data

     What more needs to be done, if anything, to ensure            ita quality meets the DOT'S
     data quality guidelines?
     FMCSA needs a better estimate of non-fatal reportable crashes. We question
     FMCSA's assessment that states are reporting 99 percent of reportable non-fatal
     crash records to MCMIS. To ensure it meets data quality standards, FMCSA should
     r   improve its ability to measure non-fatal crash completeness.
     1   complete its development of a new measure that is based on a more accurate
         national estimate for non-fatal crash completeness with a statistically valid way to
         estimate each state's share.
     FMCSA has agreed to implement new data quality measures and re-evaluate the
     SafeStat related data quality standards by October 2007.




Control No. 2006-041
                                                                                            Enclosure
                                                                                          Page 9 of 12


                 FMCSA's Data Quality Standards for
                  Reliable and Complete Data (cont.)
   We question FMCSA's assessment that states are reporting 99 percent of
   reportable non-fatal crash records to MCMIS. Specifically:
     FMCSA does not address the impact of the NHTSA General Estimate System (GES)
     +/-I
       5 percent relative margin of error for non-fatal large truck crash involvements that
     FMCSA uses as its benchmark.
     The magnitude of UMTRI identified non-fatal crash underreporting has not been
     addressed. Therefore, reporting continues to be significantly incomplete in nine states
     with UMTRI evaluations.
     r   The MCMIS file of non-fatal large truck crash records contained only 60 percent of
         the crashes determined to be reportable by UMTRI.
         Although the nine UMTRI states were not representative of all states, they represent
         38 percent of state reported crash records in MCMIS for 2004.
     The crash completeness measure in FMCSA's SSDQ map is not a good standard of
     data quality because the GES estimate cannot be used as a benchmark for individual
     state non-fatal crash reporting.




Control No. 2006-041
                                                                                             Enclosure
                                                                                        Page 10 of 12


                FMCSA's Data Quality Standards for
                 Reliable and Complete Data (cont.)

     What is the standard for reliable and complete data in the SafeStat system?


        =MCSA's Standards for Reliable Data
                        -


        1. SafeStat Data Quality Rating of ~      ~    ~   S     ~     u   a    r    t   e   I   r   s
        2. MCMlS non-fatal &sh reporting at 90 percent of ~ e n e r aEstimates
                                                                        l         System
                                   of calendar year                                          1
        3. No regional clustering of states with over 60 percent of crash records            I
           underreported
                  .--                                                      -

        4. Implement the DataQs system




Control No. 2006-041
                                                                                                                    Enclosure
                                                                                                               Page 11 of 12


                  FMCSA's Data Quality Standards for
                   Reliable and Complete Data (cont.)

                                                   -1
     We assessed FMCSA standards for reliable and complete data.
I FMCSA's Standards for Reliable Data
                                                               2:;:ard      '
                                                                                  the standard
                                                                                1 3
                                                                                                   -
                                                                                                  I Has tht
                                                                                impacted by crash , standard
                                                                                measure issue?      been met?
                                                                                       Yes
       consecutive quarters
    2. MCMlS non-fatal crash reporting at 90                         Yes                Yes               Unknown*

1       percent of General Estimates System (GES)
       within 6 months of calendar year w

    3. No regional clustering of states with over 60                 Yes                Yes               Unknown*
                                                                                                                        I
                                                                                                                        I
       oercent of crash records underre~orted
    4. Implement the DataQs system                                  Yes                 No                    Yes
    *Because of weaknesses in FMCSA's ability to measure non-fatal crash completeness, we were unable to determine
1   whether the standard was met. Before the question can be answered, FMCSA must address the problems with the non-fatal
    :rash measure.                                                                                                     rn




Control No. 2006-041
                                                                                                     Enclosure
                                                                                                 Page 12 of 12
                                                                                                           I
I                    FMCSA's Data Quality Standards for
                      Reliable and Complete Data (cont.)
         Is this standard a good indication of reliable data? If not, what
         recommendations would the Office of Inspector General suggest as to the
         proper standard or standards?
         r   Yes. FMCSA's standard for reliable data is good. However, FMCSA should not use
             the GES non-fatal crash estimate as the benchmark for its standard for non-fatal
             crash completeness. FMCSA has already agreed to implement a new measure for
             its standard.
         Even when SafeStat meets the Department's data quality standards, should
                                                                                                           I
         there be a review period before new data are publicly posted to give carriers and
         the states the opportunity to review and correct any incorrect data?
             Because FMCSA already has processes in place to receive comments and correct
             data problems, we did not conclude that a public review period would provide
             significant additional benefit.
             Motor carriers and the states are given the opportunity to correct data using the
             DataQs system.




    Control No. 2006-041
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
FMCSA’s State Safety Data Quality Map
         Updated Results: March 23, 2007



         State                State Rating
Alabama                          Good
Alaska                            Fair
Arizona                          Good
Arkansas                         Good
California                       Good
Colorado                         Good
Connecticut                      Good
Delaware                         Good
District of Columbia             Good
Florida                          Good
Georgia                          Good
Hawaii                           Good
Idaho                            Good
Illinois                          Fair
Indiana                           Fair
Iowa                             Good
Kansas                           Good
Kentucky                         Good
Louisiana                        Good
Maine                            Good
Maryland                          Fair
Massachusetts                     Poor
Michigan                         Good
Minnesota                        Good
Mississippi                      Good
Missouri                         Good
Montana                          Good
Nebraska                         Good
Nevada                           Good
New Hampshire                     Poor
New Jersey                        Poor
New Mexico                        Fair
New York                         Good
North Carolina                    Fair
North Dakota                     Good
Ohio                             Good
Oklahoma                         Good
Oregon                           Good
Pennsylvania                     Good
Rhode Island                     Good
South Carolina                   Good
South Dakota                     Good
            FMCSA’s State Safety Data Quality Map
                    Updated Results: March 23, 2007
           Tennessee                          Good
           Texas                              Good
           Utah                               Good
           Vermont                            Good
           Virginia                           Fair
           Washington                         Good
           West Virginia                      Fair
           Wisconsin                          Good
           Wyoming                            Good


The map ratings are the result of an evaluation of state-reported crash and
roadside inspection data to FMCSA. Roadside inspection data are evaluated
for timeliness and accuracy. Crash data are evaluated for completeness,
timeliness, accuracy and consistency. However, for crash completeness, the
map excludes non-fatal crashes.
